CERTIFICATE OF COMPLIANCE
No.

StrRGIO MOMOX-CASELIS, individually and as Guardian Ad Litem for MARIA
MOMOX-CASELIS; and SERGIO MOMOX-CASELIS and KRISTIN WOODS as Co
Special Administrators of the estate of M.M.; PETITIONERS
V.

TARA DONOHUE; LISA RUIZ-LEE; KIM KALLAS; JERtrMY LAW; SHUUANDY
ALVARtrZ; LANI AITKEN; OSCAR BENAVIDES; PATRICIA MtrYERS; COUNTY
OF CLARK, a political subdivision of the State of Nevada

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 1,397 words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.1(Ð.

I declare under penalty of perjury that the foregoing
Executed on

26

is true and correct

August, 2021

MARJORIE HAUF, ESQ.
Counsel of Record

H&P LAW
8950 W. Tropicana Ave., Ste. I
Las Vegas, NV 89147
0oÐ ;ss-4529
nt h a u f@ c o tt t' t t"o om p t"o ve n. co m
Sworn to and subscribed before me

aid

nt on the date designated below

1J\

OTARY PUBLIC

